                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

  Case Number: A12050038                                                                     Page 1 of 1



                  We assessed the circumstances behind the retraction of a publication 1 that acknowledged
          NSF support. The publication's author was previously a post-doctoral researcher supported on
          an NSF award; 2 the PI of that award did not participate in preparation of the publication. The
          University analysis of the complaint concluded that the publication inappropriately discussed
          experimental methods relevant to sample preparation. Accordingly, the University made the
          journal aware of their analysis, and the journal retracted the publication. We concurred with the
          conclusions of the University analysis.

                    Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
